OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/AFGHANISTAN’S
FINANCIAL ACCESS FOR
INVESTING IN THE
DEVELOPMENT OF
AFGHANISTAN PROJECT
AUDIT REPORT NO. F-306-14-002-P
MARCH 29, 2014


KABUL, AFGHANISTAN
Office of Inspector General


March 29, 2014

MEMORANDUM

TO:      	          USAID/Afghanistan Mission Director, William Hammink

FROM: 	             OIG/Afghanistan Country Office Director, James C. Charlifue /s/

SUBJECT:	           Audit of USAID/Afghanistan’s Financial Access for Investing in the Development
                    of Afghanistan Project (Report No. F-306-14-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the audit recommendations and have included those comments
in Appendix II.

The report includes four recommendations to strengthen USAID/Afghanistan’s Financial Access
for Investing in the Development of Afghanistan Project. We evaluated management comments
and acknowledge the mission’s management decisions on all the recommendations. Please
provide the Audit Performance and Compliance Division with the necessary documentation to
achieve final action on all four recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




 U.S. Agency for International Development
 Office of Inspector General
 U.S. Embassy
 Kabul, Afghanistan
 http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Agribusiness Activities Did Not Meet Objectives..................................................................... 5 


     Activities Have Not Strengthened the Capacity of the Central Bank....................................... 7 


     Mobile Money Has Not Caught On ......................................................................................... 8 


     Mission Had Not Awarded a Contract for a Financial Audit of the Project ............................ 10 


Evaluation of Management Comments................................................................................... 12 


Appendix I—Scope and Methodology .................................................................................... 13 


Appendix II—Management Comments ................................................................................... 16 

SUMMARY OF RESULTS 

Although there are few reliable statistics on poverty in Afghanistan, having been in conflict for
decades it is undoubtedly one of the poorest countries in the world. The collapse of the formal
banking system during these years of war, coupled with continuing security threats, weak
governance, corruption, and a poorly educated population, means that Afghanistan will need
significant time and investment before it is able to meet its social and economic objectives. The
Afghanistan National Development Strategy acknowledges that increased private investment is
critical for this process.

Accordingly, USAID/Afghanistan seeks to help the country develop its financial sector. As part
of this, the mission awarded Chemonics International Inc. (Chemonics) a contract to implement
the Financial Access for Investing in the Development of Afghanistan Project. The project began
in February 2011. Its goal was to build a sustainable, diverse, and inclusive financial sector that
could generate and sustain quality employment by meeting the needs of micro-, small, and
medium-size enterprises. To do this, the project’s objectives were to enhance the outreach and
capacity of financial institutions, update and develop financial regulations, and provide technical
assistance to mobile money providers as shown below. The total estimated cost of the contract
as of December 2013 was $88.5 million, with obligations of $79.3 million and disbursements of
$69.5 million. The project was to end in August 2014.
                                         Project Structure




Source: Auditor created based on project documents.
* Mobile money allows customers to store and send money using their cell phones.
†
  “Gender mainstreaming” and “grants and subcontracts” components cut across the other activities.



                                                                                                     1
The Office of Inspector General/Afghanistan (OIG/Afghanistan) conducted this audit to
determine whether the project was meeting its goal. Although the project was having
measurable success in some areas, it was not meeting all its objectives, as discussed below.

Enhancing the Outreach of Financial Institutions: Facilitating Job-Creating Loans to
Enterprises and Working With Agribusinesses. The project reported creating more than
20 new financial products at various financial institutions. This included Islamic banking
products demanded by Muslim borrowers.1 The project also worked with borrowers and lenders
to facilitate 2,004 loans totaling $25.8 million. Both borrowers and lenders reported improved
business practices after receiving assistance from the project, and are well situated to repeat
the steps necessary for requesting and granting loans on their own in the future.

While these achievements are significant given the challenging operating environment, they
have not necessarily resulted in a more sustainable, diverse, and inclusive financial sector, as
they were designed to do. Examples of unmet expectations follow:

	 The project reported that, as of September 30, 2013, its activities had helped create
   2,458 full-time equivalent jobs.2 When USAID approved the project in 2009, officials
   envisioned that it would result in 300,000 sustainable jobs. Mission officials now
   acknowledge that this target was set without a complete understanding of Afghanistan’s
   financial sector, including difficult loan collateral requirements.

	 Only 4 percent of the loans by volume (i.e., number) were made by banks belonging to the
   Afghanistan Banks Association. With elections approaching in 2014 and an unclear security
   situation due to the scheduled drawdown of international forces, Afghans are reluctant to
   invest. The remaining loans were from donor-funded financial institutions and
   organizations—not sustainable funding sources. In fact, of the 2,004 loans that the project
   takes credit for, 1,851 (92 percent) were made by a microfinance institution that made loans
   using the project’s own grant money.

	 While roughly 30 percent of the loans by volume went to female-owned businesses, they
   received only 7.2 percent of the loans by amount. This share is not significantly higher than
   the 3 percent that USAID noted for the entire sector during its approval of the activity in
   2009, despite the plan to increase lending to women.

	 Of the 2,004 loans, only 3 (totaling $301,600) went to businesses in southern Afghanistan,
   indicating that the financial sector there is still struggling. Of the full-time equivalent jobs
   created, only five were in the south. When it designed the project, USAID thought the
   contractor would be able to encourage institutions to enter this underserved market, but
   security concerns continue to deter serving it.

Building Capacity in Financial Institutions. Activities under this objective were generally
advancing the overarching project goal. The project reported enhancing the capacity of financial
institutions by training 2,101 financial sector employees and providing technical assistance to

1
  Islamic banking, or Sharia-compliant finance, prohibits the payment or acceptance of specific interest or 

fees. 

2
  A full-time equivalent job is 260 working days in a year. To calculate full-time equivalent jobs, the project

totals the 8-hour days worked by permanent, part-time, and seasonal employees and divides by 260. 




                                                                                                             2
31 entities working in the financial sector. One of these, the Afghanistan Institute of Banking and
Finance, received assistance in raising and accounting for its own revenues—an example of the
project’s efforts to enhance the sustainability of the financial sector. Roughly 23 percent of
project trainees were women, a notable achievement since women make up a considerably
smaller percentage of workers in the financial industry. Beneficiaries of training in Mazar-i-Sharif
gave positive reviews and said they would welcome more training.

Improving the Enabling Environment. By their nature, activities under this objective should
help to develop a more sustainable financial sector. To improve the enabling environment, the
contract said that the project planned to build the capacity of various entities to support an
enabling environment for policy, legal, and regulatory matters, which in turn enhances
transparency, promotes expansion, and establishes the “rules of engagement” for financial
institutions. As part of these activities, the project intended to provide direct assistance to
strengthen the legal framework and supervisory capacity of Da Afghanistan Bank (DAB),
Afghanistan’s central bank. However, the project no longer provides direct assistance to DAB,
except with mobile money. The project is instead working with secondary entities to try to
achieve the same objectives.

Expanding Mobile Money and Branchless Banking. To expand access to credit throughout
Afghanistan, USAID and Chemonics agreed that the project would increase the number of
mobile money agents, institutions using mobile money applications, participating merchants,
and government employees who receive their salaries through mobile money.

With project help, DAB revised regulation related to mobile money; two of four mobile network
providers in the country received their licenses to offer electronic money; and an industry
association was established. The project also gave grants to mobile network providers from a
$5 million innovation fund to expand their services. An official from one mobile network provider
that received a grant told auditors that because the company had complemented the grant with
its own significant investment, its mobile money program was likely to continue for the
foreseeable future. However, because mobile money activities have not caught on in
Afghanistan, activities under this objective have not furthered the goal of building a sustainable,
diverse, and inclusive financial sector.

Across all objectives, the audit disclosed the following weaknesses:

	 Agribusiness activities did not meet their objectives (page 5). Agribusiness assistance was
   added nearly 2 years after the project began. It was ineffective because of a difficult lending
   environment in southern Afghanistan and a short implementation period, factors that officials
   from USAID and Chemonics failed to address adequately during planning.

	 Activities have not strengthened the capacity of the central bank (page 7). The project was
   reduced to working with various associations and institutions to improve the enabling
   environment, rather than working directly with DAB—the body responsible for regulating the
   country’s banking sector.

	 Mobile money has not caught on (page 8). Problems confounded the expansion of mobile
   money, suggesting that funds might have been put to better use.

	 The mission had not awarded a contract for a financial audit of the project (page 10).
   Officials were not confident that project funds were properly accounted for and spent in



                                                                                                  3
   accordance with applicable laws, regulations, and policies, but resource constraints stopped
   USAID from awarding a contract for a financial audit in fiscal year 2013.

To overcome these weaknesses, we recommend that USAID/Afghanistan:

1. 	 Deobligate the remaining agricultural funds from the project (page 7).

2. 	 Modify the expected results detailed in the contract that it expects Chemonics to achieve
     under the project, in light of the relationship with the central bank (page 7).

3. 	 Determine whether mobile solutions are appropriate in Afghanistan, and modify the project’s
     expected results accordingly (page 10).

4. 	Award a contract for an audit of costs incurred in Afghanistan by Chemonics for the
    Financial Access for Investing in the Development of Afghanistan Project (page 11).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Management comments are included in their entirety in Appendix II, and our
evaluation of them is included on page 12.




                                                                                              4
AUDIT FINDINGS
Agribusiness Activities Did Not
Meet Objectives
In December 2012, 22 months into implementation, USAID/Afghanistan allocated $13.3 million
to the project for agricultural activities in southern Afghanistan. The contractor was to develop
the input distribution system, support produce-packing facilities and help develop markets, train
producers in postharvest handling, and conduct crosscutting activities such as training women
on small-scale activities that could be done from home. According to the contract, these
activities would result in increased lending to underserved micro-, small, and medium-size
enterprises, thereby enhancing the outreach of retail financial institutions.

Even though participants said they were impressed with the quality of the agribusiness training
and that their business practices had improved as a result, as of September 2013, the outcome
in terms of increased lending was disappointing. The project had facilitated only $301,600 in
loans to just three agribusinesses in the south—a $1,600 loan to buy chickens and feed, a
$100,000 loan to buy equipment for cotton production, and a $200,000 loan to purchase an oil
refinery and a packing machine.

Output-based measurements of the component’s success also fell short. While Chemonics
reported conducting 94 training courses and hosting 4 conferences, only 637 individuals
received training, and only 373 attended conferences. Further, many of the conference
attendees (11.5 percent) were government or donor representatives, not producers, traders, or
suppliers. Although Chemonics and USAID never agreed on how many individuals should have
benefitted from the $13.3 million agribusiness component—a problem in itself—a mission official
told auditors that he expected 3,000 to 4,000 beneficiaries.

Agribusiness activities did not meet the intended objectives because officials from USAID and
Chemonics were focused on future agricultural projects, meaning that they did not ensure
activities were planned and implemented to compensate for a difficult lending environment in
southern Afghanistan and a short implementation period.

	 Difficult lending environment in southern Afghanistan. Even though USAID endorsed
   Chemonics’ technical approach to achieving the objective, no matter how successful the
   project was in boosting agribusinesses’ creditworthiness, the following factors limited
   opportunities for those businesses to obtain loans:

   	 Access to finance remains an acute constraint to private sector development. Few
      private banks have branches in southern Afghanistan, and there is very little
      microfinance coverage in the area. Beneficiaries also mentioned that, of the lending
      institutions available, few offered Islamic financing products—essential for some
      borrowers.

   	 To secure a loan in Afghanistan, lending institutions generally require a land deed. Male
      beneficiaries interviewed in Kandahar estimated that only 20 percent of business owners
      in the region possess this documentation, and the female beneficiaries noted women
      rarely hold deeds.



                                                                                               5
    	 Many of the beneficiaries interviewed said they would use a loan to purchase machinery.
       However, the existing environment—with circumstances such as ongoing electricity
       challenges and few qualified in machine maintenance—make machinery a risky
       investment for both borrowers and lenders.

	 Short implementation period. To have a measurable impact, agricultural programs should
   correspond to the growing cycle. They should also extend beyond one growing season to
   give beneficiaries the time needed to implement new techniques. The agribusiness
   component of this project did not correspond to the growing cycle or give beneficiaries time
   to apply techniques. The component was added to the contract in December 2012, and
   activities concluded in October 2013.

    Start-up activities also consumed a disproportionate share of the 10-month implementation
    period. For example, Chemonics had to bring in short-term technical assistance to write
    training materials before courses could be offered, and it was not until the last 3 months of
    the component that Chemonics was able to bring in a subcontractor to assist with
    monitoring. Because the new activities were to be implemented in southern Afghanistan—a
    very insecure region of the country—the start-up activities also included significant, and
    difficult, logistics planning. For example, Chemonics initially decided, for security reasons, to
    purchase fuel from the one vendor at the Kandahar International Airport, a decision that
    rendered its entire fleet of vehicles inoperable when the fuel was contaminated with water
    and debris.

Officially, the idea behind the expanded agricultural activities was to establish “quick response
points of access to credit while building a foundation for a sustainable and inclusive financial
system that will expand access to enterprises across the region.” However, an official from the
mission’s Office of Agriculture said that the purpose of the activities was really to serve as a
bridge between USAID’s stabilization programs in the area and the regional agricultural
development program approved in June 2012.3 The idea that these activities would make
agribusinesses more creditworthy, he said, was a “stretch.”

Meanwhile, some USAID officials thought that project officials’ on-the-ground experience and
the project’s existing structure would help the component meet its intended objectives.
However, once implementation started USAID officials began to feel that the project was not
doing a good job of integrating the agribusiness component with the rest of the project. USAID
officials called for increased collaboration between the leaders of the agribusiness activities and
the rest of the project. When the project made only minimal adjustments, USAID officials wanted
to terminate the agribusiness activities. But faced with pressure from external parties, including
officials from the U.S. military, they did not.

While the U.S. Government may have benefitted from having a continuous agricultural presence
in the region, and beneficiaries spoke highly of the trainings, the agribusiness activities did not
achieve the objectives in the contract. As of September 2013, Chemonics had billed the U.S.
Government for more than $9.6 million—including almost $2.5 million in salaries, fringe benefits,
and allowances and almost $2.2 million in overhead, general and administrative costs, and fees.

3
  USAID advertised its planned regional agricultural development program to contractors in January 2013.
Chemonics was one of three contractors to submit a proposal. Following competitive bidding, Chemonics
received the award for the $125 million Regional Agricultural Development Program-South in October 2013.



                                                                                                      6
While these figures will rise with the component’s final invoice, the agribusiness activities have
concluded, and the total budget will be well below the $13.3 million allocated. The agricultural
activities were not successful, and Chemonics cannot use the remaining funds for purposes
other than agricultural activities unless the mission reprograms them. Accordingly, we make the
following recommendation.

    Recommendation 1. We recommend that USAID/Afghanistan deobligate the remaining
    agricultural funds from the Financial Access for Investing in the Development of
    Afghanistan Project.

Activities Have Not Strengthened the
Capacity of the Central Bank
In addition to activities such as those focused on increasing lending to small enterprises and
strengthening the capacity of industry associations, the project also has an objective to improve
the enabling environment for private sector-led financial sector development. To do this, the
contract said that the project should provide direct assistance to strengthen the legal framework
and supervisory capacity of DAB, Afghanistan’s central bank.

However, the project was not providing direct assistance to DAB, except with mobile money.
Instead, the project was working with secondary entities to improve the enabling environment.
For example, the project was providing support to the Afghanistan Banks Association, which is
trying to “create an environment in which its members can work in coordination with other key
players for promoting the financial services to the wider public and advocating transparency and
professionalism,” and may act as an intermediary between banks and DAB. While this approach
may lead to some improvements in the enabling environment, it cannot achieve the same
results that working directly with DAB could, since DAB is the body responsible for regulating
the country’s banking sector.

The project was not providing direct technical assistance to DAB, except in the area of mobile
money, because USAID instructed project officials not to in early 2012. USAID acted based on
the U.S. Government’s political concerns stemming from the Kabul Bank crisis.4 USAID’s
position remained the same in early 2014, given the limited potential for effectiveness in the
current environment.5

Because USAID does not yet have assurances that additional technical assistance to DAB
would be effective, we make the following recommendation.

    Recommendation 2. We recommend that USAID/Afghanistan modify the results that it
    expects Chemonics to achieve under the Financial Access for Investing in the
    Development of Afghanistan Project, in light of the relationship with the central bank.




4
  Information on the Kabul Bank crisis is in the OIG’s Review of USAID/Afghanistan’s Bank Supervision
Assistance Activities and the Kabul Bank Crisis, Report No. F-306-11-003-S, March 16, 2011.
5
  Information on the current environment appears in a report from the Special Inspector General for
Afghanistan Reconstruction (SIGAR): SIGAR Audit-14-16, Afghanistan’s Banking Sector: The Central
Bank’s Capacity to Regulate Commercial Banks Remains Weak, issued January 8, 2014.



                                                                                                   7
Mobile Money Has Not Caught On
According to the contract, the project would enhance the capacity and reach of mobile money
and branchless banking. USAID and Chemonics agreed to focus on mobile money by
increasing the number of mobile money agents, institutions using mobile money applications,
participating merchants, and government employees who receive their salaries through mobile
money.

With project help, DAB revised its Money Service Providers Regulation to include mobile money
considerations; two of four mobile network providers in the country received their licenses to
offer electronic money (licenses for the others were in process); and an industry association, the
Association of Mobile Money Operators of Afghanistan, was established. The project had also
given grants to mobile network providers from a $5 million innovation fund to develop their
services further. An official from the Afghan Wireless Communication Company (AWCC), a
mobile network provider that received a grant, told auditors that because the company had
complemented the grant with its own significant investment, its mobile money program was
likely to continue for the foreseeable future.

Yet improvements in the project’s agreed-upon metrics (the indicators in the table below) were
slow, and figures do not support that the project has significantly enhanced the capacity and
reach of mobile money. As of September 2012—19 months into the project—the project was
still reporting zero improvement. A year later, the metrics had improved only slightly.

             Results of Work to Expand Mobile Money Nationwide, September 2013

                                Measure                         Result
                  Mobile money agents                             310
                  Institutions using mobile money
                                                                    13
                  applications
                  Participating merchants*                         270
                  Government employees receiving
                  their salaries through mobile                  1,067
                  money
* Audited.

So little information exists on mobile money in Afghanistan that it is difficult to gauge what the
project’s results should have been. In fact, when the project started, neither USAID nor
Chemonics knew enough about the environment to set meaningful targets. However, USAID
has stated that the “tipping point for commercial viability” of mobile money in Haiti, Afghanistan,
Indonesia, Philippines, Malawi, and Mozambique is to have at least 20 percent of mobile phone
users using mobile money within 4 years.6 Yet DAB reported that as of October 2013, only
10,642 (less than 1 percent) of Afghanistan’s almost 21 million mobile phone users were “active
mobile money users,” meaning that they conduct at least 12 mobile money transactions per
year.

Many factors account for the limited progress:


6
    USAID Forward Progress Report 2013.



                                                                                                 8
	 USAID did not do enough research on the suitability of mobile money in Afghanistan.
   USAID’s policy requires activities to be supported by a development hypothesis, which
   describes how the Agency will achieve its long-term goals. The hypothesis should be
   country-specific, and based on proven development concepts and experiences. However,
   USAID/Afghanistan invested in mobile money activities without including them in its
   framework.7

    USAID/Afghanistan officials could provide only one study—of limited scope and
    methodology, and not completed until 2013—confirming a “slight preference” among
    teachers in Afghanistan for receiving salaries via mobile money instead of by other methods.
    On the other hand, mobile money was not defined as a priority in the Afghanistan National
    Development Strategy, and business owners in Kandahar, many of whom had never heard
    of mobile money, did not anticipate ever adopting the technology. Instead, they wanted
    financial institutions to increase access to finance through other means, such as automatic
    teller machines.

    Ostensibly, mobile money activities in Afghanistan were driven by USAID’s recent emphasis
    on innovation and successes in countries like Kenya, where 70 percent of adults use mobile
    money. However, these countries have very different business environments. For example,
    USAID/Afghanistan officials listed challenges inhibiting the adoption of mobile money in the
    country including high fees; limited interoperability among banks, mobile operators, and
    merchants; banking laws that do not consider modern technologies; customer preferences;
    agents’ without enough cash on hand for transactions; uncertain business sustainability; and
    low transaction limits.

	 Recipients had trouble implementing their grants. By March 2012, Chemonics was
   already reporting that three of the mobile network operators were having trouble
   implementing their grants, especially in procuring goods and services, because they lacked
   experience implementing USAID-funded projects. Ultimately, the project revoked a grant to
   one mobile network operator who could not deliver as planned. These difficulties delayed
   implementation.

	 Grant-funded pilot programs were unsuccessful. Mobile network operators launched
   pilot programs for their mobile money offerings, which failed for different reasons. For
   example, Etisalat launched a program in July 2012 that allowed customers to pay their utility
   bills using mobile money. By December 2012, the company reported registering 87,815 new
   subscribers for the service; however, only 15 of them—all USAID employees—used the
   service to pay their bills that month. Still, in early 2014, while subscribers numbered close to
   100,000, only a few hundred were active users. In early 2013, AWCC ran a pilot program for
   electronic payment of teacher salaries at two schools. Although 400 teachers registered for
   it, none of them were using the service at the time of the audit because of fees associated
   with transferring money between their existing bank accounts and the bank integrated with
   AWCC’s service.



7
  The U.S. Foreign Assistance for Afghanistan Post Performance Management Plan-2011-2015 described
four ways to develop the country’s business climate: implementing effective fiscal and monetary policy;
strengthening policy, legal, and regulatory frameworks for key economic sectors; enhancing private sector
competitiveness; and enhancing the workforce so that it meets private and public sector demands.



                                                                                                       9
USAID continues to push for mobile solutions in development,8 but the results described above
suggest the Agency’s significant investments in mobile money in Afghanistan might have been
put to better use. According to mission officials, other mobile solutions, such as branchless
banking, might be more successful. Before additional taxpayer funds are spent on this initiative
in Afghanistan, we recommend the mission take the following action.

      Recommendation 3. We recommend that USAID/Afghanistan conduct an analysis to
      determine whether mobile solutions are appropriate in Afghanistan and modify
      accordingly the expected results for the Financial Access for Investing in the
      Development of Afghanistan Project.

Mission Had Not Awarded a Contract
for a Financial Audit of the Project
According to USAID guidance (Automated Directives System 591.3.1.2), auditors “must
examine the direct and indirect costs incurred under the awards to determine the allowable
direct costs and recommend the indirect cost rates.” Normally, according to Federal Acquisition
Regulation 42.101, the Defense Contract Audit Agency (DCAA) is the government audit agency
for projects implemented by for-profit contractors like Chemonics. USAID/Afghanistan, to
“improve the Mission’s ability to ensure that USG [U.S. Government] funds are properly
accounted for and spent in accordance with applicable laws, regulations and policies,” has
imposed an additional requirement that 100 percent of costs incurred in Afghanistan undergo a
financial audit.

However, as of October 2013, DCAA was still auditing Chemonics’ fiscal year 2004 costs.
USAID/Afghanistan had not yet contracted with a firm to conduct an audit of the costs incurred
in Afghanistan, though the project was awarded in February 2011.

As discussed in a 2012 report issued by the Special Inspector General for Afghanistan
Reconstruction,9 understaffing at DCAA has led to a backlog of audits, and USAID lacks funding
to contract audits of all awards in Afghanistan. USAID/Afghanistan had included the project on
its list of audits to be completed in fiscal year 2013; however, it was not listed as the highest
priority, and the mission did not get to it, citing a lack of resources.

Although the contracting officer’s representative for the project reviews invoiced charges      and
denies those he finds inappropriate, he does not know whether Chemonics spends                  and
accounts for U.S. Government funds in accordance with applicable laws, regulations,             and
policies. In fact, this has been a source of concern to him. For example, he saw costs once     split
between this project and other Chemonics projects rise when those projects ended.

An audit of the costs incurred in-country would give USAID assurances about Chemonics’
practices and might identify ineligible or unsupported costs that the mission could recover. For
example, as the result of a recent audit of Chemonics’ Trade Accession and Facilitation for




8
    Refer to USAID’s Mobile Solutions Web site at http://www.usaid.gov/mobile-solutions.
9
    SIGAR Audit-12-9, Contract Performance and Oversight/USAID Audits, issued April 30, 2012.



                                                                                                 10
Afghanistan Project,10 USAID planned to issue a bill of collection for almost $3.7 million in costs
unsupported by a subcontractor’s timekeeping records. That same subcontractor did work under
the Financial Access for Investing in the Development of Afghanistan Project.

To ensure that U.S. Government funds were properly accounted for and spent in accordance
with applicable laws, regulations, and policies, we make the following recommendation.

     Recommendation 4. We recommend that USAID/Afghanistan award a contract for an
     audit of costs incurred in Afghanistan by Chemonics under the Financial Access for
     Investing in the Development of Afghanistan Project.




10
  Financial Audit of Costs Incurred in Afghanistan by Chemonics International Inc., Under the Trade
Accession and Facilitation for Afghanistan Project, Contract No. 306-C-00-09-00529-00 for the Period
From November 18, 2009, Through November 15, 2012, Report No. F-306-13-010-N, issued by
OIG/Afghanistan.



                                                                                                 11
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Afghanistan agreed with and made management
decisions on all four recommendations. In addition, the mission provided technical comments on
the draft that we incorporated in this report. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/Afghanistan agreed to deobligate the remaining agricultural funds
from the project. The mission expected to complete action by March 31, 2014. We acknowledge
management’s decision.

Recommendation 2. USAID/Afghanistan agreed to modify the results that it expects
Chemonics to achieve under the project. The mission’s Office of Economic Growth and
Infrastructure will work with the contracting officer as necessary to modify the project’s targets.
The new targets will be presented to the Office of Acquisition and Assistance with a contract
modification expected by April 30, 2014. We acknowledge management’s decision.

Recommendation 3. USAID/Afghanistan agreed with the recommendation. The contractor has
already completed an assessment of the use and perceptions of financial services, especially
mobile money, and the mission reported performing a similar analysis. With the results, the
mission expected to amend the project’s scope by April 30, 2014. We acknowledge
management’s decision.

Recommendation 4. USAID/Afghanistan agreed with the recommendation. The mission
included the project in its fiscal year 2014 audit plan and expected to achieve final action by
August 2014. We acknowledge management’s decision.




                                                                                                12
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The OIG/Afghanistan Country Office conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe the evidence
obtained provides that reasonable basis.

The audit objective was to determine whether the project was building a sustainable, diverse,
and inclusive financial sector that could generate and sustain quality employment by meeting
the needs of micro-, small, and medium-size enterprises throughout the country.

In planning and performing the audit, we assessed USAID/Afghanistan’s internal controls. We
reviewed and inquired about the mission’s reporting for the Federal Managers’ Financial
Integrity Act of 1982,11 which provided detail on the mission’s significant internal control
deficiencies. We also obtained an understanding of and evaluated the mission’s organizational
structure and its contracting, monitoring and evaluating, and reporting processes. This included
obtaining and reviewing documentation to support the designation of the contracting officer’s
representatives, the completion of data quality assessments, the performance of site visits,
meetings held with implementing partners, the submission of periodic performance reports, and
the scheduling of program evaluations.

As of December 2013, USAID/Afghanistan had disbursed $69.5 million of the $79.3 million
obligated to the project. We chose to focus our audit procedures on activities implemented
directly by the contractor, limiting our procedures for grants ($5 million) and subcontracts
($11.8 million).

Audit fieldwork was conducted from October 21, 2013, to January 9, 2014. We conducted
fieldwork in Kabul, where we interviewed key personnel at USAID/Afghanistan, Chemonics,
DAB, AWCC, and the Ministry of Finance. In Kandahar Province, we met with the provincial and
regional representatives from Chemonics, two of the three business owners in the region who
had been approved for the project-facilitated loans, and five women and eight men of the
637 people who had attended the project’s agribusiness trainings in southern Afghanistan. In
Balkh Province, we visited Mazar-i-Sharif to meet with officials from the project’s regional office,
the Afghan Rural Finance Corporation, Azizi Bank, and two loan beneficiaries.

Methodology
To answer the audit objective, we first reviewed applicable laws, best practices, and guidelines,
including the contract and its modifications. We then sought to understand the economic
environment in Afghanistan, including the strategies of the Afghan and U.S. Governments to
improve it, by obtaining and reviewing relevant studies and documents such as the Afghanistan
National Development Strategy and the U.S. Civil-Military Strategic Framework for Afghanistan.

11
     Public Law 97-255, as codified in 31 U.S.C. 3512.



                                                                                                 13
                                                                                        Appendix I


At USAID/Afghanistan, we met with officials responsible for oversight of the project. We
interviewed the deputy team leader for economic growth; contracting officers; the contracting
officer’s representative; the gender adviser for economic growth; a representative from the
agriculture office; and officials from the program, controller, and outreach communication
offices. We conducted these meetings to assess mission personnel’s knowledge and
implementation of USAID guidance and requirements, and their general familiarity with the
project activities. We reviewed documentation provided by USAID/Afghanistan, such as contract
documents, work plans, and performance reports, to determine the extent to which planned
results were being achieved. Testimonial evidence was evaluated in conjunction with other
interviews, available documentation, and site visits.

We conducted additional interviews with officials from Chemonics in Afghanistan. This included
the chief of party, his deputies, the managers of each of the project’s components, a
representative from Chemonics’ headquarters, and monitoring and evaluation staff. Through
these interviews, we assessed the implementing partner’s knowledge and compliance with
USAID guidance and requirements. In conjunction with the interviews, we reviewed
documentation provided by Chemonics and USAID/Afghanistan, in part to validate results on
the following performance indicators:

   Number of full-time equivalent jobs created. 

   Amount of private financing mobilized. 

   Number of participating (mobile money) merchants. 


For the first two indicators, we reviewed the detailed support for 18 randomly selected
businesses supported by the project and approved for loans—5 each from the north, east, and
west, and all 3 loans from the south. We did not use a statistical sample as it would have
required a sample size of 50 to reach a 90 percent confidence level, and we did not expect that
this testing would lead to a different answer to our audit objective. For the third indicator,
because the project does not produce the supporting documentation, we simply compared the
results reported by the project with the data provided by the mobile network operators. We then
met with AWCC, one of the operators, in part to understand how data were collected. We also
used the opportunity to obtain officials’ feedback on the project.

Additional interviews were conducted with officials at DAB and the Ministry of Finance. These
interviews were used to learn more about the private sector in Afghanistan and obtain officials’
perspective on the project’s activities.

We selected site visit locations judgmentally, based on our ability to travel to field locations and
to meet with individuals that could give us qualitative feedback on the project’s activities. We
visited Kandahar Province to understand the challenges of working in southern Afghanistan—
and how the project addressed those challenges—by meeting with the provincial and regional
representatives from Chemonics and two of the three business owners in the region who had
been approved for the project-facilitated loans. We also met with five women and eight men (of
the 637 people who had attended the project’s agribusiness trainings in southern Afghanistan)
to assess the quality and impact of the trainings, as well as to gauge the project’s compliance
with rules and regulations. We visited Balkh Province to meet with owners of businesses whose
loans were facilitated by the project to (1) confirm loan amounts, (2) confirm the number of jobs
created, (3) assess public awareness of U.S. Government involvement, and (4) assess the
quality of the project’s assistance to the loan beneficiaries.




                                                                                                 14
                                                                                   Appendix I


Given the nature of the audit objective, we established no materiality thresholds. Rather,
auditors did a qualitative analysis to determine whether the desired results had been achieved
and whether Chemonics followed applicable laws, regulations, and requirements. Our
conclusions are based on stakeholders’ testimonial evidence; a comparison of the project’s
performance against established targets; and compliance with award terms, Office of
Management and Budget circulars, and the Automated Directives System.




                                                                                           15
                                                                           Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

DATE:              March 15, 2014

TO:                James Charlifue, OIG/Afghanistan Director

FROM:              Carolyn Bryan, Acting Mission Director /s/

SUBJECT:           Draft Report on the Review of USAID/Afghanistan’s Financial
                   Access for Investing in the Development of Afghanistan
                   (Report No. F-306-14-00X-P)

REFERENCE:         SHaqshenas/JHope memo dated February 13, 2014

Thank you for providing USAID/Afghanistan with the opportunity to review the
subject draft audit report. We commend the OIG audit team on the thorough
review of the Financial Access for Investing in the Development of Afghanistan
(FAIDA) project. The Mission takes note of the efforts made by the team to see a
broad spectrum of the activities of the project, the extensive time spent
interviewing beneficiaries, host-nation officials and other international partners,
and the willingness of OIG team members to travel outside Kabul to see the on-
going national project. These efforts made the recommendations all the more
significant to the Mission.

We also appreciate OIG’s recognition of the measurable success of FAIDA in
enhancing the outreach of financial institutions in Afghanistan. The project has
facilitated the creation of more than 20 new financial products at various financial
institutions and helped provide approximately 2,004 job-creating loans to business
enterprises. Despite operating in such a challenging environment, FAIDA is
contributing to the development of an inclusive financial sector that is generating
quality employment and meeting the needs of small to medium enterprises.

Please find below the Mission comments on the report audit recommendations.



                                                                                   16
                                                                          Appendix II


Recommendation 1: We recommend that USAID/Afghanistan de-obligate the
remaining agricultural funds from the Financial Access for Investing in the
Development of Afghanistan Project.

USAID Comments: The Mission concurs with Recommendation 1.

Actions Taken/Planned: The Contracting Officer Representative of FAIDA has
had discussions with the Office of Financial Management (OFM) to de-obligate
these funds. The COR will initiate action to review and de-obligate any remaining
funds.

Target Closure Date: March 31, 2014

Recommendation 2: We recommend that USAID/Afghanistan modify the
results that it expects Chemonics to achieve under the Financial Access for
Investing in the Development of Afghanistan Project, in light of the relationship
with the Central Bank.

USAID Comments: The Mission concurs with Recommendation 2.

Actions Taken/Planned: A strong central bank is a key pillar of economic
stability. Shortly after FAIDA started work, because of external factors, the U.S.
Government (USG) complied with President Karzai’s directive to cease working
with the Da Afghanistan Bank (DAB). Nevertheless, the Mission, recognizing the
need for central-bank reform, is reluctant to de-scope all DAB support. The
vulnerability of Afghanistan’s financial sector and the weaknesses of DAB were
recently highlighted by a Special Inspector General for Afghanistan Reconstruction
audit of USG support to DAB. FAIDA has endeavored to find ways to influence
DAB, while not directly working with it. An example and a key proponent has
been work with the Afghanistan Banks Association.

With the elections pending, a new regime will likely create the opportunity to
support DAB. The Office of Economic Growth and Infrastructure (OEGI) will
work with the Contracting Officer as necessary to modify Chemonics FAIDA
targets to reflect the current situation.

Target Closure Date: New targets will be presented to OAA with an expected
contract modification by April 30, 2014.



                                                                                    17
                                                                           Appendix II


Recommendation 3: We recommend that USAID/Afghanistan conduct an
analysis to determine whether mobile solutions are appropriate in Afghanistan
and modify accordingly the expected results for the Financial Access for
Investing in the Development of Afghanistan Project.

USAID Comments: The Mission concurs with Recommendation 3.

Actions Taken/Planned: FAIDA commissioned Altai Consulting to assess the
penetration, usage and perceptions of financial services across Afghanistan, with a
focus on mobile money. The aim of the study was to support FAIDA, the Mission,
and, ultimately, mobile network operators (MNOs) in designing the right strategies
to boost mobile-money penetration and usage in Afghanistan. The study was
recently completed and is being used to shape the future design of FAIDA
electronic payment/mobile money efforts. Further, OEGI undertook a desk review
to guide future activities in the mobile money sector. A thorough analysis was
conducted of mobile money case studies, reports, assessments, and best practices
developed by international scholars and industry leaders. The review suggested
the Mission should focus on electronic payments, to include mobile money, rather
than focus solely on mobile money. The FAIDA project scope of work is being
amended to reflect the combined analysis’ suggested changes.

Target Closure Date: April 30, 2014

Recommendation 4: We recommend that USAID/Afghanistan award a
contract for an audit of costs incurred in Afghanistan by Chemonics
under the Financial Access for Investing in the Development of
Afghanistan Project.

USAID Comments: The Mission concurs with Recommendation 4.

Actions Taken/Planned: FAIDA is included in the FY 2014 Audit Plan and the
audit is expected to start on or around May 2014. It is a priority audit because of
the recent performance audit. Additionally, FAIDA was not audited last year, as
planned. USAID is required to audit all program costs in Afghanistan.

Target Closure Date: August 2014

Tab 1: Technical comments
cc: OAPA Afghanistan Audit

                                                                                      18
                                                                      Appendix II


Attachments:

Tab 1: Technical Comments


Page 8

“However, USAID has published that in the context of its mobile money programs
in Haiti, Afghanistan, Indonesia, Philippines, Malawi, and Mozambique, the
“tipping point for commercial viability” of mobile money is to have at least 20
percent of mobile phone users using mobile money within 4 years.”

Proposed revision to the report:

Cite document source in parentheses or footnote: p. 24, USAID Forward Progress
Report 2013,
http://issuu.com/usaid/docs/2013-usaid-forward-report4/1?e=4465259/1816401

Page 9

“USAID continues to push for mobile solutions in development but the results
described above suggest the Agency’s significant investments in mobile money in
Afghanistan might have been put to better use.”

Proposed revision to the report:

Cite document source in parentheses or footnote: http://www.usaid.gov/mobile-
solutions, as follows:

“USAID continues to push for mobile solutions in development
(http://www.usaid.gov/mobile-solutions), but the results described above
suggest the Agency’s significant investments in mobile money in Afghanistan
might have been put to better use.”




                                                                                19
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
